     AUDIT OF THE NEW YORK CITY 

        POLICE DEPARTMENT'S 

EQUITABLE SHARING PROGRAM ACTIVITIES 

         NEW YORK, NEW YORK 



       u.s. Department of Justice
     Office of the Inspector General
              Audit Division

      Audit Report GR-70-14-003 

              April 2014 



    REDACTED - FOR PUBLIC RELEASE
       AUDIT OF THE NEW YORK CITY POLICE DEPARTMENT’S

           EQUITABLE SHARING PROGRAM ACTIVITIES

                     NEW YORK, NEW YORK


                                  EXECUTIVE SUMMARY 1


       The Department of Justice Office of the Inspector General, Audit Division,
completed an audit of equitable sharing funding received by the New York, New
York Police Department (NYPD). The Department of Justice Equitable Sharing
Program allows any state or local law enforcement agency which directly
participated in an investigation or prosecution resulting in a federal forfeiture to
claim a portion of federally forfeited cash, property, or proceeds.

       The objective of this audit was to assess whether the equitably shared cash
and property received by the NYPD were accounted for properly and used for
allowable purposes as defined by applicable regulations and guidelines. During the
three fiscal years reviewed, the period covering July 1, 2008 through
June 30, 2011, the NYPD received $14,437,545 through its participation in the
Department of Justice Equitable Sharing Program. 2

       Overall, we found that the NYPD generally complied with equitable sharing
guidelines regarding the accounting and safeguarding of equitable sharing receipts,
the use of equitable sharing funds, and reporting and audit requirements. We
noted that equitable sharing request identification numbers were not always
properly entered into the equitable sharing database, and as a result, the database
could not be updated when the NYPD received equitable sharing receipts. We also
found that the NYPD did not submit its Agreement and Certification Forms in a
timely fashion, potentially inhibiting the Criminal Division Asset Forfeiture and
Money Laundering Section’s management of the equitable sharing program
implemented by the NYPD.

       Our findings are discussed in detail in the Findings and Recommendations
section of the report. The audit objective, scope, and methodology are included in
Appendix I.

       We discussed the results of our audit with NYPD officials and have included
their comments in the report, as applicable. In addition, we provided a copy of our
draft report to NYPD and the Department of Justice Criminal Division for comment.
These responses are appended to this report as Appendix II and III, respectively.
Our analysis of both responses, as well as a summary of actions necessary to close
the recommendations can be found in Appendix IV of this report.
        1
           The full version of this report contains information that may be protected by the Privacy Act of
1974, 5 U.S.C. §552(a) or may implicate the privacy rights of identified individuals. Therefore, the
Office of the Inspector General redacted portions of the full report to create this public version of the
report.

        2
            The NYPD fiscal year begins on July 1 and ends on June 30.


                                                     i
                                    TABLE OF CONTENTS




INTRODUCTION ......................................................................................... 1

  Background............................................................................................... 1

  New York City Police Department ................................................................. 2

  OIG Audit Approach ................................................................................... 2



FINDINGS AND RECOMMENDATIONS ......................................................... 4

  Requests for Equitable Sharing Funds ........................................................... 4

  Accounting For and Safeguarding of Equitable Sharing Receipts ........................ 5

  Use of Equitable Sharing Funds .................................................................... 6

  Reporting and Audit Requirements ............................................................... 8

  Conclusions............................................................................................. 10

  Recommendations.................................................................................... 11



APPENDIX I - OBJECTIVE, SCOPE AND METHODOLOGY ............................ 12

APPENDIX II - NEW YORK POLICE DEPARTMENT RESPONSE TO

   THE DRAFT AUDIT REPORT ............................................................... 14

APPENDIX III - CRIMINAL DIVISION RESPONSE TO THE DRAFT

   AUDIT REPORT.................................................................................. 16

APPENDIX IV - OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND

   SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT .............. 17

                                INTRODUCTION

       The Department of Justice (DOJ) Office of the Inspector General, Audit
Division, completed an audit of the equitable sharing funds received by the New
York City Police Department (NYPD). The audit covered the NYPD’s Fiscal Years
(FYs) 2009 through 2011, beginning on July 1, 2008, and ending on June 30, 2011.
According to the United States Marshals Service (USMS) electronic payment
reports, during that 3-year period, the NYPD received $14,437,545 as a participant
in the DOJ Equitable Sharing Program.

       The objective of the audit was to assess whether the cash and property
received by the NYPD through the Equitable Sharing Program were accounted for
properly and used for allowable purposes as defined by applicable regulations and
guidelines.

Background

       The Comprehensive Crime Control Act of 1984 authorized the implementation
of the DOJ Asset Forfeiture Program (Asset Forfeiture Program). The Asset
Forfeiture Program is a nationwide law enforcement initiative that removes the tools
of crime from criminal organizations, deprives wrongdoers of the proceeds of their
crimes, recovers property that may be used to compensate victims, and deters
crime. One of the key elements in the Asset Forfeiture Program is the Equitable
Sharing Program. The Equitable Sharing Program allows any state or local law
enforcement agency which directly participated in an investigation or prosecution
resulting in a federal forfeiture to claim a portion of federally forfeited cash,
property, and proceeds.

       The amount of direct participation in an investigation and whether the
seizure was part of a joint investigation or part of an adopted seizure will determine
the state or local agency’s amount or percentage of equitable sharing funds. Joint
investigations are those in which federal agencies work with state or local law
enforcement agencies, and the equitable sharing funds distributed to the state or
local agency are related to the agency’s direct participation. An adoption occurs
when a seizure is made by the state or local law enforcement agency without the
assistance of a federal agency and requests one of the federal seizing agencies to
adopt the seizure and proceed with federal forfeiture. In adoptive cases where the
state or local agency performed 100 percent of pre-seizure activity, the federal
agency will generally receive 20 percent of the equitable sharing proceeds.

       Three DOJ components work together to administer the Equitable Sharing
Program – the United States Marshals Service (USMS), the Justice Management
Division’s Asset Forfeiture Management Staff (AFMS), and the Criminal Division’s
Asset Forfeiture and Money Laundering Section (AFMLS). The USMS is responsible
for transferring the equitable sharing funds from the DOJ to the receiving state or
local agency. The AFMS manages the Consolidated Asset Tracking System, a
database used to track federally seized assets throughout the forfeiture life-cycle.


                                          1

The AFMLS tracks the membership of the state and local Equitable Sharing Program
participants, updates the Equitable Sharing Program rules and policies, and
monitors the allocation and use of the equitable sharing funds.

       In order to participate in the Asset Forfeiture Program and receive equitable
sharing funds, a state or local law enforcement agency must become a member of
the Equitable Sharing Program and submit an annual Equitable Sharing Agreement
and Certification Form. The Equitable Sharing Agreement and Certification Form is
submitted to AFMLS by the state or local law enforcement agency within 60 days
after the end of the agency’s fiscal year. By signing the form, the officials of the
participating agency certify that agency will comply with the equitable sharing
guidelines and statutes.

New York City Police Department

        Established in 1845, the NYPD is the largest police department in the United
States with approximately 34,500 police officers, as of November 2012. The NYPD
provides law enforcement to the population within the five boroughs of New York
City. 3 As of July 2011, the population of New York, New York was approximately
8.2 million.

       The mission of the NYPD is to enhance the quality of life within the city by
working in partnership with the community and in accordance with constitutional
rights to enforce the laws, preserve the peace, reduce fear, and provide for a safe
environment.

OIG Audit Approach

       We tested compliance with what we considered to be the most important
conditions of the DOJ Equitable Sharing Program. Unless otherwise stated, we
applied the Guide to Equitable Sharing for State and Local Law Enforcement
Agencies (Equitable Sharing Guide), issued in April 2009 as our primary criteria.
The Equitable Sharing Guide provides information and guidelines about the Asset
Forfeiture Program and the Equitable Sharing Program; identifies accounting
procedures and requirements for tracking equitable sharing cash and property;
establishes reporting and audit requirements; and defines the permissible uses of
equitable sharing resources.

      To conduct this audit, we tested the NYPD’s compliance with the following
aspects of the Equitable Sharing Program:

    •	 Requests for Equitable Sharing Funds to determine if the requests for
       equitable sharing funds were properly tracked and updated.



       3
          The five boroughs within New York City include: Manhattan, Bronx, Brooklyn, Queens, and
Staten Island.




                                                 2

   •	 Accounting for and Safeguarding of Equitable Sharing Receipts to
      determine whether the equitable sharing cash and property received were
      properly recorded and safeguarded.

   •	 Use of Equitable Sharing Funds to determine if equitable sharing cash
      and property received were adequately supported and used for allowable
      purposes.

   •	 Reporting and Audit Requirements to determine whether the NYPD
      submitted complete, accurate, and timely Federal Equitable Sharing
      Agreement and Certification Reports and received single audits as required.

     See Appendix I for more information on our objective, scope, and
methodology.




                                        3

                     FINDINGS AND RECOMMENDATIONS

       We found that the New York City Police Department generally complied
       with equitable sharing guidelines regarding accounting for and
       safeguarding equitable sharing receipts, the use of equitable sharing
       funds, and the reporting and audit requirements. However, we found
       equitable sharing request identification numbers were not always
       properly inputted into the equitable sharing database. As a result, the
       database could not be updated when the NYPD received the equitable
       sharing request’s corresponding equitable sharing payment receipt. In
       addition, the NYPD submitted the annual Agreement and Certification
       Forms during FY 2009 through FY 2011 an average of 3 months late.
       Although, an AFMLS Official noted that it is not unusual for larger
       agencies to need additional time to submit their Agreement and
       Certification Forms. Clearly, AFMLS’ ability to ensure effective
       management, promote public confidence in the integrity of the
       Equitable Sharing Program, and protect the Asset Forfeiture Program
       is compromised when the established guidelines are not followed.

Requests for Equitable Sharing Funds

       The Equitable Sharing Guide requires that law enforcement agencies
implement standard accounting procedures to track all equitable monies and
tangible property received. This includes maintaining a log using a consecutive
numbering system for control purposes. The log should include seizure type,
seizure amount, share amount requested, amount received, and date received for
each share request. Since the amount received may differ from the amount
requested, the log should be updated after receiving an equitable sharing payment
receipt notification from the USMS.

        The Asset Forfeiture Unit (AFU) within the NYPD is responsible for: tracking
all seized assets valued at $1,000 or more; reviewing, approving, and submitting all
of the NYPD equitable sharing requests; and maintaining the NYPD Asset Forfeiture
Log and the AFU tracking database. 4 The NYPD uses an Asset Forfeiture Log to
establish a consecutive numbering system and a tracking database to track all
submitted equitable sharing requests. Unique numbers established within the Asset
Forfeiture Log are then entered into the AFU tracking database for a particular
equitable sharing request.

      We reviewed the Asset Forfeiture Log and the AFU tracking database to
ensure that the NYPD captured all elements required in the Equitable Sharing
Guide. We found all of the required elements were captured by the Asset Forfeiture
Log and the AFU tracking database.



        4
           According to the Equitable Sharing Guide, state or local law enforcement agencies must
submit to the federal seizing agency a separate Form DAG-71, “Application for Transfer of Federally
Forfeited Property,” for each equitable sharing request.


                                                  4

       The USMS electronically transfers funds to participating agencies’ bank
accounts when making equitable sharing payments, known as E-Shares. While the
Equitable Sharing Guide states that participating agencies should receive a receipt
notification when an E-Share transfer is made, according to an NYPD official, the
NYPD did not receive any notifications during our audit period, but did receive E-
Share transfers. Absent such notifications during our audit period, we found that
the NYPD used monthly bank statements to update its tracking database with E-
Share payments, including the date and amount of each payment.

       We judgmentally selected and tested 79 E-Share receipts totaling
$7,038,865, or about 49 percent of the total equitable sharing funding received, to
determine whether E-Share receipts and corresponding equitable sharing requests
were properly tracked in the NYPD’s tracking database. We then compared the E-
Share receipts in the tracking database to the USMS E-Share Report. 5 Initially, we
found that 22 of the 79 E-Share receipts were not updated in the tracking
database, or about 28 percent of the receipts we tested. According to an NYPD
Official, the corresponding equitable sharing requests for those 22 E-Share receipts
were in the tracking database, but their identification numbers had not been
appropriately entered into the system. As a result, the equitable sharing requests
in the tracking database were not identified when the corresponding E-Share was
received. After being notified of this issue, an NYPD official obtained and entered
the identification numbers into the tracking database.

       Without appropriately entered identification numbers for equitable sharing
requests, the NYPD was not readily able to identify and update its tracking database
when payment was received. As a result, we recommend that the NYPD implement
policies and procedures to ensure that its tracking database is properly updated
with the equitable sharing request identification number when requests are made.

Accounting For and Safeguarding of Equitable Sharing Receipts

       According to the USMS E-Share Report, during the period of our review
covering NYPD’s FYs 2009 to 2011 the NYPD received 787 E-Share receipts totaling
$14,437,545, as shown below. Also according to the E-Share Report, the NYPD did
not receive any equitable sharing tangible assets during this period.




       5
         The USMS E-Share Report documents all equitable sharing receipts received by the NYPD
during our audit period.


                                                5

                              E-Share Receipts to the NYPD

                           July 1, 2008 through June 30, 2011

                              Fiscal Year    Cash or Proceeds
                                 2009              $ 3,675,146
                                 2010                 3,644,129
                                 2011                 7,118,269
                               Total 6          $14,437,545
                       Source: USMS E-Share Report

      The Equitable Sharing Guide requires agencies to establish a separate
revenue account, or an accounting code, to track the E-Shares and to implement
standard accounting procedures to track equitable sharing receipts. We found that
the NYPD established a separate revenue code for the E-Share receipts it received.

      In performing our testing of the 79 E-Share receipts, that totaled
$7,038,865, we compared the E-Share receipts in the NYPD’s Financial
Management System (FMS) to the USMS E-Share Report. We found that the E-
Share receipts were accurately recorded in the FMS. To ensure the receipts were
appropriately deposited into the separate revenue code used by the NYPD, we
reviewed the bank statements associated with the sampled receipts and found all
79 receipts were electronically transferred into the account in a timely manner.

Use of Equitable Sharing Funds

      We found the NYPD expended a total of $9,652,929 in equitable sharing
funds during its FYs 2010 and 2011. Prior to expending equitable sharing funds,
each year the NYPD’s Deputy Commissioner Committee prepared an annual budget
plan outlining the estimated amount of equitable sharing funds that were to be
received and the permitted uses of the funds. We found that the NYPD’s equitable
sharing funds received were disbursed to ten commands within the NYPD and those
commands used the funds to purchase training, communications equipment,
computers, firearms, surveillance equipment, vehicles, and supplies.

       Overall, the oversight of the NYPD’s use of equitable sharing funds followed
the NYPD’s normal course of business. The NYPD Budget and Management Analysis
Section was responsible for ensuring that each command remained within its
allotted equitable sharing budget. The NYPD Quartermaster was responsible for
overseeing the procurement process, which included ensuring that, for any
procurement using equitable sharing funds, the correct policies were followed and
purchase orders were properly prepared. The NYPD Audits and Accounts Unit was
responsible for maintaining the invoice and other supporting documentation for
each purchase. Finally, the NYC Office of the Comptroller was responsible for
paying each invoice.




      6
          The total amount difference is due to rounding.


                                                  6

      We judgmentally selected and tested 47 transactions totaling $2,144,859, or
22 percent of the total expended, to determine if the expenditures were supported
by adequate documentation and allowable as defined in the Equitable Sharing
Guide. The sample transactions included high-dollar purchases and an assortment
of expenditure types within the different commands that received funds. To
determine if the expenditures were adequately supported, we reviewed invoices,
purchase orders, receiving reports, and contracts the NYPD Audits and Accounts
Unit maintained for equitable sharing expenditures. According to the Equitable
Sharing Guide, adequate support should indicate that the state or local law
enforcement agency: (1) obtained approval for the purchase, (2) issued contracts
or purchase orders to formally disburse deposited assets for goods or services, (3)
deducted purchase orders and contracts from the account balance, and (4)
maintained a record of all equitable sharing expenditures.

      Based on our review of the supporting documentation, we determined that
the NYPD maintained adequate documentation of the expenditures using equitable
sharing funds.

       The Equitable Sharing Guide requires state and local agencies to use
equitable sharing funds received for law enforcement purposes. The table below
summarizes some of the allowable and unallowable uses of equitable sharing funds
as outlined in the Equitable Sharing Guide. 7

                    Summary of Allowable and Unallowable

                       Uses for Equitable Sharing Funds

              Allowable Uses                     Unallowable Uses
   Law Enforcement Investigations     Extravagant Expenditures
   Law Enforcement Training           Food and Beverages
   Law Enforcement Equipment          Education-Related Costs
   Asset Accounting and Tracking      Uses Contrary to the Laws of the State
                                      or Local Jurisdiction
   Law Enforcement Awards and         Non-Official Government Use of Shared
   Memorials                          Assets
   Law Enforcement Travel and         Use of Forfeited Property by Non-Law
   Transportation                     Enforcement Personnel
   Law Enforcement and Detention      Salaries and Benefits of Current Law
   Facilities                         Enforcement Personnel
      Source: Equitable Sharing Guide

       Based on our review of the sampled expenditure transactions, we found that
the NYPD used equitable sharing funds to purchase general office equipment and
supplies, motor vehicles, automotive supplies and materials, automotive
maintenance and repair, contractual and professional services, and the leasing or
renting of equipment. We determined that the NYPD used the equitable sharing
funds for allowable purposes.
       7
          The Equitable Sharing Guide includes the complete list of allowable and unallowable uses for
equitable sharing funds.


                                                  7

      We also examined whether the accountable property purchased with
equitable sharing funds was properly inventoried and at its assigned location. 8 We
judgmentally selected 49 pieces of accountable property for further testing. The
sample included items such as vehicles, cameras, metal detectors, and copiers.
Because the sampled accountable property was located at different commands, we
sent each command a letter requesting confirmation that the property was in its
custody. We received responses from all of the NYPD commands verifying that the
accountable property was in its possession.

Supplanting

       According to the Equitable Sharing Guide, equitable sharing funds must be
used to increase or supplement the resources of the receiving state or local law
enforcement agency or any other ultimate recipient agency. Equitable sharing
resources are not be used to replace or supplant the appropriated resources of the
recipient. The recipient agency must benefit directly from the equitable sharing
funds. If, for example, a police department receives $100,000 in equitable sharing
funds only to have its budget cut $100,000 by the city council, the police
department has received no direct benefit whatsoever. Rather, the entire city has
received the benefit of the equitable sharing funds.

      In determining whether the NYPD supplanted equitable sharing funds, we
examined the law enforcement agency's total budget for five fiscal years – FY 2009
through FY 2013. Using analysis criteria DOJ developed, agencies are allowed to
use equitable sharing funds for any permissible purpose as long as the funds
increased the entire law enforcement budget for the fiscal years tested. We found
the NYPD’s budget increased during the years tested and equitable sharing funds
appeared to supplement the budget. As a result, no further analysis was
warranted.

Reporting and Audit Requirements

       To ensure effective management, promote public confidence in the integrity
of the Equitable Sharing Program, and protect the Asset Forfeiture Program against
potential waste, fraud, and abuse, the Equitable Sharing Guide requires
participating law enforcement agencies to annually submit an Equitable Sharing
Agreement and Certification Form (Agreement and Certification Form) and, if
applicable, an audit report.




       8
          The NYPD is not required to have a centrally located inventory system documenting all
accountable property purchased with equitable sharing funds. According to the Equitable Sharing
Guide, law enforcement agencies are required to track tangible assets received as part of the
Equitable Sharing Program. However, the Equitable Sharing Guide does not require an inventory
system for tracking purchased accountable property.




                                                 8

Equitable Sharing Agreement and Certification Form

      In order to participate in the Equitable Sharing Program, a state or local law
enforcement agency must annually submit a signed Agreement and Certification
Form. We tested the compliance of the Agreement and Certification Form
requirements to determine if the NYPD’s Agreement and Certification Forms were
complete, accurate, and submitted timely.

       The Agreement and Certification Form has two sections – the agreement and
the certification. The certification section of the form details the equitable sharing
activity of that fiscal year. The agreement portion must be signed by the head of
the law enforcement agency and a designated official of the governing body. By
signing and submitting the Affidavit, the signatories agree to be bound by the
statutes and guidelines that regulate the equitable sharing program and certify that
the law enforcement agency will comply with these guidelines and statutes.

      We reviewed the three NYPD Agreement and Certification Forms for FYs 2009
through 2011 to determine if the Agreement and Certification Forms were
completed and signed by the applicable officials. The Police Commissioner and the
Mayor of New York signed the three Agreement and Certification Forms. We
determined that the forms were complete and signed by the proper officials.

        To assess the accuracy of the revenue reported on the NYPD’s Agreement
and Certification Form, we reconciled the total revenue reported on the Agreement
and Certification Form in FY 2011 to the AFMLS Detailed Distribution Report. We
found that the FY 2011 Agreement and Certification Form showed $7,118,269 in
revenue while the AFMLS Detailed Distribution Report showed $7,112,039 a
difference of $6,230. According to an AFMLS official, the payment of $6,230 was
made, but it was not uploaded to the AFMLS system, therefore we relied on the
USMS E-Share Report to reconcile the revenue reported on the Agreement and
Certification Form. We found the revenue listed on the FY 2011 Agreement and
Certification form was accurate.

        To verify that the expenditures reported on the NYPD FY 2011 Agreement
and Certification Form accurately reflected the NYPD's equitable sharing activities,
we compared the expenditures on the Agreement and Certification Form to the
expenditures in the NYPD accounting records. Our initial review found that all
categories except for the "total spent on other law enforcement expenses" reflected
the NYPD's equitable sharing activities. The NYPD accounting records reflected
$15,238 more in expenditures than what was reported on the Agreement and
Certification Form. We asked the NYPD to provide additional documentation. We
reconciled the information the NYPD provided with the accounting records and
found that the dollar amount reported on the Agreement and Certification Form
represented a period in time. The NYPD was able to identify the expenditures
included in the Agreement and Certification Form with minor differences which were
deemed immaterial.




                                          9

       According to the Equitable Sharing Guide, state and local law enforcement
agencies must submit the annual Agreement and Certification Form within 60 days
after the end of an agency's fiscal year, regardless of whether funds were received
or maintained during the fiscal year. To assess the timeliness of the Agreement
and Certification Forms, we reviewed the three Agreement and Certification Forms
submitted by the NYPD for FYs 2009 through 2011.

        We found that the NYPD submitted all three Agreement and Certification
Forms late – 108, 93, and 85 days, respectively. According to an AFMLS Official,
AFMLS routinely allows additional time for agencies to file the Agreement and
Certification Forms. In addition, the AFMLS Official noted it is not unusual for larger
agencies to need additional time to submit their Agreement and Certification Forms.
While we recognize that the NYPD’s equitable sharing program funding is
substantial, AFMLS criteria clearly establishes the timeframes for submitting
Agreement and Certification Forms and the NYPD did not meet the established
timeframes for any of its reports during the period of our review. Without the
timely submission of these forms, AFMLS’ ability to ensure effective management,
promote public confidence in the integrity of the Equitable Sharing Program, and
protect the Asset Forfeiture Program against potential waste, fraud, and abuse is
compromised. As a result, we recommend that the NYPD ensure that its
Agreement and Certification Forms are submitted timely.

Single Audits

      The Equitable Sharing Guide requires that state and local law enforcement
agencies that receive equitable sharing cash, proceeds, or tangible property
perform an audit consistent with the Single Audit Act Amendments of 1996 and
OMB Circular A-133, Audits of States, Local Governments, and Non-Profit
Organizations.

       To determine if the city’s single audits reported any internal control
weaknesses or instances of noncompliance with laws and regulations relating to the
NYPD equitable sharing activity, we reviewed the city’s Single Audits from FY 2009
through FY 2011. The city’s single audit encompasses the operations of the city’s
five counties, which includes the NYPD. We found no findings pertaining to the
NYPD's activities that may be relevant to its handling of or accounting for equitable
sharing funds.

Conclusions

       We found that the NYPD generally complied with the equitable sharing
guidelines for the accounting and safeguarding equitable sharing receipts, the use
of the funds, and the reporting and auditing requirements. However, we found
equitable sharing request identification numbers were not always properly inputted
into the equitable sharing database. In addition, while AFMLS may routinely allow
additional time for the submission of the annual Agreement and Certification Forms,
the NYPD was an average of 3 months late submitting their reports for FY 2009
through FY 2011.


                                          10

Recommendations

We recommend that the Criminal Division:

   1. Ensure the NYPD implements policies and procedures to ensure that the
      tracking database is properly updated with the equitable sharing request
      identification number when requests are made.

   2. Ensure the NYPD submits its annual Agreement and Certification Forms
      within required timeframes.




                                        11

                                                                      APPENDIX I


                OBJECTIVE, SCOPE AND METHODOLOGY

       We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective.

      The objective of the audit was to assess whether the equitably shared cash
and property received by the NYPD were accounted for properly and used for
allowable purposes as defined by applicable regulations and guidelines. We tested
compliance with what we considered to be the most important conditions of the DOJ
Equitable Sharing Program. We reviewed laws, regulations, and guidelines
governing the accounting for and use of DOJ equitable sharing receipts, including
the Guide to Equitable Sharing for State and Local Law Enforcement Agencies,
dated April 2009. Unless, otherwise stated in our report, the criteria we audit
against are contained in these documents.

       Our audit concentrated on, but was not limited to, equitable sharing funds
received by the NYPD from July 1, 2008 through June 30, 2011. During this period,
the NYPD received $14,437,545 in equitable sharing funds. To test the equitable
sharing funds received, we judgmentally selected and tested 79 E-Share receipts
totaling $7,038,865, or 49 percent of the total equitable sharing funds received.

       Our audit also concentrated on, but was not limited to, equitable sharing
funds expended by the NYPD from July 1, 2009 through June 30, 2011. We
concentrated on FYs 2010 and 2011 for the funds expended by the NYPD because
the NYPD upgraded the accounting system in FY 2009 and the expenditure detail
for FY 2009 was not readily available. Although we were not able to test the FY
2009 expended equitable sharing funds, we believe there is no effect based on the
low risk and no findings or recommendations were found during testing. In FYs
2010 and 2011, the NYPD expended $9,652,929 of equitable sharing funds. We
judgmentally selected and tested 47 expenditure transactions totaling $2,144,859,
or 22 percent of the total amount of equitable sharing funds expended. We did not
review the expenditure contracts found in our testing sample.

       Judgmental sampling design was applied to obtain broad exposure to
numerous facets of disbursements reviewed, such as dollar amount, categories, and
commands. These non-statistical sample designs do not allow projection of the test
results to the entire universe of equitable sharing receipts during our audit period.

       We performed audit work at the NYPD Headquarters located in New York,
New York. We interviewed NYPD, the city’s Department of Finance, and the city’s
Office of the Comptroller Officials and examined records related to revenue and
expenditures of DOJ equitable sharing funds received by the NYPD. In addition, we
relied on computer-generated data contained in the USMS E-Share Report for
determining equitable sharing revenues awarded to the NYPD during our audit


                                         12

period. As discussed in the “Reporting and Audit Requirements” Section, the
AFMLS Detailed Distribution Report was not accurate and therefore we relied on the
USMS E-Share Report to better represent the NYPD E-Share receipts. However, we
did not establish the reliability of the data contained in the USMS or the AFMLS
systems as a whole. Nevertheless, when the data we used is viewed in context
with other available evidence, we believe the opinions, conclusions, and
recommendations included in this report are valid.

      Our audit specifically evaluated the compliance of the NYPD with what we
considered to be essential equitable sharing guidelines, relating to the following:
equitable sharing requests, accounting for equitable sharing receipts, use of
equitable sharing funds, and reporting and audit requirements. In planning and
performing our audit, we considered internal controls established and used by the
NYPD over the equitable sharing funds to accomplish our audit objective. However,
we did not assess the reliability of the city’s financial management system, internal
controls, or whether it, as a whole, complied with laws and regulations.

       Our audit included an evaluation of supplanting. In determining whether
NYPD supplanted equitable sharing funds we examined the law enforcement
agency's budget as a whole. Using analysis criteria DOJ developed, agencies are
allowed to use equitable sharing funds for any permissible purpose as long as the
funds increased the entire law enforcement budget for the fiscal years tested.

      Our audit also included a review of the New York City FY 2009 through FY
2011 Single Audits and found no internal control weaknesses or significant non­
compliance issues related specifically to the NYPD equitable sharing activity.




                                         13

                                                                                         APPENDIX II

NEW YORK POLICE DEPARTMENT RESPONSE TO THE DRAFT
                  AUDIT REPORT



                            POLICE DEPARTMENT


                              Oflice of Management Analysis and Planning
                              Room 80411
                              One Police Plaza
                              New York. NY 10038



                                                                  March 4, 20 14


      Thomas O. Pucrzer
      Regional Audit Manager
      OOJ/Office of the Inspector General
      Philadelphia Regional Audit Office
      70 1 Market Street
      Philadelphia, PA 19106

                                                                  Re: NYC Police Department
                                                                      Audit and Equitable
                                                                      Shllring Funds
      Dear Mr. Puer.!:er,

             I am responding to the findings and recommendations relating to the Police
     Oepanment's participation in the Equitable Sharing (E-Share) program. I was pleased to
     find that the NY PO was found to be in general compliance with E-Share guidelines.
     With regards to the audit's findings, we have contacted the appropriate commands and
     the following will serve as OUf explanation.

                  I . Finding (/#!): The Equitable Sharing (E-Share) tracking database could
                     nol ulways be upd(Jted due ta missing idenl/fiCtltion numbers.

                     Ru pon!e: Prior 10 the audit. the NYPD did not receive email payment
                     notifications. Since the audit. the NYPO has gained access to the E-Share
                     database and can now run queries. As a result, timelier reconcil iations and
                     updates of the tracking database now occur.

                 2. Finding (#2): The NYPD ha.J been on average J munlhs Ime submilling
                    their reports/or FY 20091hrough 2011.

                     Ruponse: Due to the City of New York's year-end. financial closing
                     procedures that usually extend to early September (30 days past the 60 day
                     filing date), the Department has been unable to meet the 60 day filing
                     deadline without sacrificing the accur"'dey~s accounting
                     information and data. After conferring with _ _ of the Ollice



                     COURTESY         PROFESSIONALISM               RESPECT
                                   Webllte: bttp:llayt.lov/aypd




                                                 14

             of the Inspector General, it was detennined that the audit did not reveal
             any instances where this dday inhibited the Criminal Division Asset
             Forfeiture and Money Laundering Section's management o f the E-Share
             program in any way. Though the 00) routi nely allows additional time for
             agencies to file the Agreement and Certification fonns, the NY PD will
             continue to strive to reduce the filing time and attain compliance with the
             60 day filing deadline. The fact that the NYPD now has access to the E·
             Share database. with the ability to run spet:ific queries, means that the
             database will be updated more frequen tl y and should aid in reducing filing
             time. Furthennore. the NYPD can now request reports from other federal
             agencies. This new abi lity makes the tracking of all federally forfeited
             money possible and will enable NYPD personnel to update the database
             with greater frequency.

       The Police Department will implement these recommendations to address the
findings discovered by the audit. If you have any questions concerning this response
please contact our audit liaisons. Police Officer Ryan Baer or Catherine Yuan. at the
Audit Management Unit at 646-6 10-8365.                                  ~

                                                         Very truly yours,

                                                  ~rn~--r. f1                I
                                                   ~ Terrence Riley
                                                        Ins pector
                                                        Commanding Officer




                                        15

                                                                                             APPENDIX III

CRIMINAL DIVISION RESPONSE TO THE DRAFT AUDIT REPORT


                                                           U.S. Dep a rtment   or Justi ce




                                                            FEB 20 1014
      M KMOR Al\'"J)UM

      TO:           Thomas O. Puerzer
                    Regional Audit Manager
                    Philadelphia Regional Audi t Offi ce


                                       ~ '1
                                                                c!'--'
      FROM:         Jennifer Bickford
                    Acting Assistant De p ty CRief     -;;1.,;>0-
                    Asset Forfeiture and Money                      I
                      Laundl.-ring Section

      SUBJECT:      DRAFf OIG AUDIT REPORT- Audit of the New York C ity Po lice
                    Departmc:nt's Equilable Sharing Program Activities New York, New York

              In a memorandum to Mythili Raman dated January 27, 2014, your office provided a draft
      of the above referenced repon, and requested comments and a response from the Criminal
      Division. The Asset Forfeiture and Money Laundering Section (AFMLS) concurs with the
      following recommendations:

                    I. Ensure the New York City Police Dcpartment (NVPD) implements polieics
                       a nd procedures to ensure th ai th e truc king dala bllse is properly upd a ted
                       witb tbe equitable sha rin g r equ cst idcntification num ber w ben r equests a re
                       made.
                    1. Knsurc th e NVPD submits its annual Agrecmcnt ll nu Certification Forms
                       within required timeframes.

              Upon submission o rthe final report for the above referenced audit, AFMLS will work
      with the NYPD to take the necessary actions to close out the audit report recommendations.
      Please fee l free to contact me at (202) 514·1 470 with any further questions.

      ec:   Denise Turcotte
            Audit Liaison
            Criminal Division

            Richard P. Theis
            Assistant Director
            Aud it Liaison Group
            Internal Review and Evaluation Officc
            Justice Management Division




                                                     16

                                                                     APPENDIX IV

OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND SUMMARY
       OF ACTIONS NECESSARY TO CLOSE THE REPORT

       The OIG provided a draft of this audit report to the New York City Police
Department (NYPD) and the Criminal Division’s Asset Forfeiture and Money
Laundering Section (AFMLS). The NYPD’s response is incorporated as Appendix II
of this final report and AFMLS’ response is incorporated in Appendix III of this final
report. The following provides the OIG analysis of the responses and summary of
actions necessary to close the report.

Recommendation:

   1. Ensure the NYPD implements policies and procedures to ensure that
      the tracking database is properly updated with the equitable sharing
      request identification number when requests are made.

      Resolved. The NYPD and AFMLS concurred with our recommendation. The
      NYPD stated in its response that it now has access to the E-Share database
      which allows for timely reconciliations and updates to the tracking database.

      This recommendation can be closed when we receive evidence that the NYPD
      has access to the E-Share database and policies and procedures have been
      implemented to ensure that the tracking database is properly updated with
      the equitable sharing identification number when requests are made.

   2. Ensure the NYPD submits its annual Agreement and Certification
      Forms within required timeframes.

      Resolved. The NYPD and AFMLS concurred with our recommendation. The
      NYPD stated in its response that it has been unable to meet the filing
      deadline without sacrificing the accuracy of the accounting information and
      data. However, the NYPD’s response also stated that it will strive to reduce
      the filing time to the required filing deadline. The NYPD also explained that
      in addition to the E- Share database access, the NYPD can now request
      reports from other federal agencies which will allow for easier equitable
      sharing fund tracking and should reduce filing time.

      This recommendation can be closed when we receive evidence that the NYPD
      has submitted its annual Agreement and Certification Form within the
      required timeframe.




                                          17

